June 2, 2021

Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Ezralee J. Kelley v. United States, No. 20-7474

Dear Mr. Harris:
I represent Petitioner Ezralee J. Kelley in this matter. Pursuant to Supreme Court
Rule 15.5, Petitioner waives the 14-day waiting period and requests that the petition
and brief in opposition be distributed to the Court today for its consideration at the
June 17 Conference. We intend to submit a reply brief no later than June 9, so that
the Court will have full briefing well in advance of its Conference.
Sincerely,
/s/ Matthew Campbell
Matthew Campbell
Federal Public Defender
U.S. Virgin Islands
cc: Counsel of Record

